XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVE., STE 11000
SAN FRANCISCO, CA 94102

Telephone: (415) 510-3919
E-Mail: Samuel.Harbourt@doj.ca.gov

December 24, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

South Bay United Pentecostal Church, et al., v. Newsom, et al. No. 20-746

Dear Mr. Harris:
We represent three of the respondents, Governor Gavin Newsom, Attorney General
Xavier Becerra, and the Acting California Public Health Officer (who is currently Dr. Erica Pan),
in the above-captioned matter. On November 24, 2020, petitioners South Bay United
Pentecostal Church, et al. (South Bay), filed a petition for a writ of certiorari before judgment,
seeking review of an October 15, 2020 order in which the district court had denied a request for a
preliminary injunction with respect to California’s then-operative public health restrictions on
indoor worship. One day later, this Court granted an application for injunctive relief in Roman
Catholic Diocese of Brooklyn v. Cuomo, No. 20A87, 592 U.S. __ (Nov. 25, 2020), and enjoined
New York’s 10- and 25-person occupancy limits on indoor religious services pending disposition
of an appeal and any timely petition for a writ of certiorari in that case. Shortly after the Roman
Catholic Diocese decision, this Court considered another emergency application filed by
plaintiffs who, like South Bay, are seeking to enjoin California’s COVID-19 policies regarding
indoor gatherings. See Harvest Rock Church, Inc. v. Newsom, No. 20A94, 592 U.S. ___ (Dec. 3,
2020). The Court construed the Harvest Rock application as a petition for a writ of certiorari
before judgment, granted the petition, vacated the district court order denying a preliminary
injunction, and remanded with instructions for the case to be remanded to the district court for
further consideration in light of Roman Catholic Diocese. Id.1
Following this Court’s order in Harvest Rock, respondents promptly asked the court of
appeals to “follow the same course as in Harvest Rock” in this matter, by “vacat[ing] the trial
court’s ruling denying injunctive relief with instructions that it entertain a renewed motion for
interim relief in light of Roman Catholic Diocese.” C.A. No. 20-55533, Dkt. 97 (Dec. 5, 2020).
On December 8, the court of appeals accepted that request and issued an order “vacat[ing] the
district court’s October 15, 2020 order denying the motion for injunctive relief filed by South
Bay” and “remand[ing] to the district court for further consideration of this matter” in light of
Roman Catholic Diocese and Harvest Rock. C.A. No. 20-55533, Dkt. 101. The district court
1

See also High Plains Harvest Church v. Polis, No. 20A105, 592 U.S. __ (Dec. 15, 2020)
(similar); Robinson v. Murphy, No. 20A95, 592 U.S. __ (Dec. 15, 2020) (similar).

December 24, 2020
Page 2
ordered the parties to file briefs, on an accelerated schedule, addressing Roman Catholic Diocese
and other relevant developments. D. Ct. Dkt. 78. After further briefing and factual submissions
regarding California’s current public health restrictions and recent epidemiological evidence, the
district court held a hearing on December 18 regarding petitioners’ renewed motion for a
temporary restraining order or preliminary injunction. D. Ct. Dkt. 87. On December 21, the
district court issued a reasoned decision denying South Bay’s motion. D. Ct. Dkt. 92.
South Bay has since appealed that decision and filed an emergency motion for an
injunction pending appeal. Consistent with the court of appeals’ scheduling order, respondents
filed their opposition to that motion this morning. See C.A. No. 20-56358, Dkt. 6, 9. The court
of appeals has also ordered expedited briefing of the underlying appeal, which will be completed
by January 11, 2021, and it has scheduled oral argument for January 15.
In light of these developments, respondents do not intend to file a brief in opposition to
the petition for a writ of certiorari before judgment in No. 20-746 unless requested to do so by
the Court.
Sincerely,
/s/ Samuel T. Harbourt
SAMUEL T. HARBOURT
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

